SCHNEIDER & McKINNEY, P.C.

ATTORNEYS AT LAW
440 Louisiana, Suite 800
Houston, Texas 77002
(713) 951-9994
Telecopier: (713) 224-6008

Board Certified Criminal Law- Texas Board of Legal Specialization
® Board Certified Criminal Appellate Law - Texas Board of Legal Specialization
+ Board Certified DWI Defense - National College for DUI Defense

Stanley G. Schneiders ¢
W. Troy McKinney =
Thomas D. Moran

April 29, 2021

Via Federal Express
Honorable Scott S. Harris

Clerk of the Court

Supreme Court of the United States
1 First Street, NE

Washington, D.C. 20543

Re: Nathan Ray Foreman vy. State of Texas, No. 20-1445

Dear Mr. Harris:
Enclosed for filing in the above referenced matter, please find:

An original plus ten copies of Petitioner’s Motion for Stay of Mandate and is accompanied
by a Certificate of Service.

Please do not hesitate to contact me at (713) 951-9994 if you have any questions regarding
this filing. Thank you in advance for your time and assistance in this matter.

Sincerely,

i

Stanley G. Schneider

ce: All Counsel
